APPENDIX A

NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1

-C'

Jrtnifeb States ©curt of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted May 28, 2020*
Decided June 5,2020
Before
FRANK H. EASTERBROOK, Circuit Judge
DIANE S. SYKES, Circuit Judge
AMY J. ST. EVE, Circuit Judge

No. 19-3472
ADRIAN RANGEL,
Plain tiff-Appellan t,

v.
STEVEN P. MEYER, et al,
Defendan ts -Appellees.

Appeal from the United States District
Court for the Northern District of Indiana,
Hammond Division.
No. 2:18 CV 413
James T. Moody,
Judge.
ORDER

The district court dismissed Adrian Rangel's federal suit contesting the legality
of state-court orders regarding his obligation to pay child support. The Rooker-Feldman
doctrine deprived the district court of jurisdiction to hear this suit, so we affirm.

* We agreed to decide this case without oral argument because the briefs and
record adequately present the facts and legal arguments, and oral argument would not
significantly aid the court. Fed. R. App. P. 34(a)(2)(C).

No. 19-3472

Page 2

Rangel accuses Steven P. Meyer, an Indiana judge, and others of unlawfully
procuring a state-court order requiring him to pay a child-support debt of $32,000 for
his disabled adult son. Rangel refused to pay, contending in state court that the order
was arbitrary. The state court held him in contempt, required his appearance in court,
and when he failed to come to court, issued a writ of body attachment. Rangel
unsuccessfully appealed these orders in state court. In federal court Rangel contends
that by procuring the order to pay his child-support debt and to compel his appearance,
the defendants violated the Constitution. He contests the validity of these orders by
arguing that his son is not disabled and that the court entered its orders because he is a
minority, is poor, and has filed previous civil-rights case. Rangel seeks to enjoin
enforcement of the orders and obtain damages.
The district court granted the defendants' motion to dismiss. It ruled that the
Rooker-Feldman doctrine blocked the suit because Rangel sought to set aside state-court
orders. Rooker v. Fid. Tr. Co., 263 U.S. 413 (1923); D.C. Court of Appeals v. Feldman,
460 U.S. 462 (1983).
The district court's dismissal is correct. Under Rooker-Feldman only the Supreme
Court of the United States may review claims in which a "state-court loser" complains
of an injury caused by a state-court judgment. Exxon Mobil Corp. v. Saudi Basic Indus.
Corp., 544 U.S. 280, 284 (2005). Rangel lost in state court. Furthermore, "[n]o injury
occurred until the state judge ruled against [him]." Harold v. Steel, 773 F.3d 884,886-87
(7th Cir. 2014). Therefore the doctrine blocks this suit.
Rangel offers three replies, none persuasive. First, he argues that his case is like
Croley v. Joint Commission on Judicial Administration, 895 F.3d 22,29 (D.C. Cir. 2018).
There, the court ruled that-the plaintiff, a "state-court winner," could sue—in federal
court—state officials who gave him false information about enforcing a judgment. Id. at
28. But Rangel is not a state-court winner. Second, he argues that GASH Associates v.
Village ofRosemont, 995 F.2d 726, 729 (7th Cir. 1993), which the district court cited, is
distinguishable. There, a federal plaintiff appealed (and lost) in state court; Rangel
asserts that he did not have a chance to appeal rulings on some of his motions because
the state trial court allegedly ignored these motions. But Rangel's injuries arise from the
rulings that the state court did make. Because those rulings were appealable (indeed,
having appealed them, Rangel does not now contend that they were not appealable),
Rooker-Feldman prevents a federal suit to challenge them. See Harold, 773 F.3d at 886.
Third, Rangel says that he contests "administrative misdeeds" that arose in the
procedures used to reach the adverse rulings, not the rulings themselves. But

No. 19-3472

Page 3

Rooker-Feldman also blocks cases challenging how a state court used its procedures to
reach adverse decisions, as Rooker itself was such a case. Id. at 887.
AFFIRMED

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT
Office of the Gerk
Phone* (312)435-5850
www.ca7u5C0urts.gov

Everett McKinley Dlrksen United States Courthouse
Room 2722 * 219 S. Dearborn Street
Chicago, Illinois 60604

FINAL JUDGMENT
June 5,2020

Before:

- - FRANK hh EASTERBROOK, Circuit Judge DIANE S. SYKES, Circuit Judge
AMY J. ST. EVE, Circuit Judge
ADRIAN G. RANGEL,
Plaintiff - Appellant

No. 19-3472

v.

STEVEN P. MEYER, et al.,
Defendants - Appellees

m

.- *

K-v-. *

District Court No: 2:18-cv-00413-JTM-JEM
Northern District of Indiana, Hammond Division
District Judge James T. Moody

The judgment of the District Court is AFFIRMED, with costs, in accordance with
the decision of this court entered on this date.

form name: c7_FinalJudgment(form ID: 132)

_*r- > • s* .

APPENDIX B

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
HAMMOND DIVISION
ADRIAN RANGEL,

)
)
)
)
)
)

Plaintiff,
v.
STEVEN P. MEYER, MATTHEW D.
BOULAC, and VALERIE CHURCH,

No. 2:18 CV 413

)
)
)
)

Defendants.

OPINION and ORDER
I.

BACKGROUND
In his amended complaint, pro se plaintiff Adrian Rangel alleges unfair treatment

in connection with a child support order issued in Tippecanoe County, Indiana, by a
state court. (DE # 36.) Plaintiff phrases his claims in terms of "due process" and "equal
protection," and he seeks both injunctive relief and compensatory damages in the
amount of $3,000,000. (Id.)
The defendants in this case are Steven P. Meyer, a county judge; Matthew D.
Boulac, a county commissioner; and Valerie Church, a county prosecutor. Defendants
have moved to dismiss on numerous bases (DE # 48), but the court first focuses on
defendants' argument that this court lacks subject matter jurisdiction under the RookerFeldtnan doctrine (discussed in more detail below), as it must be considered first and is
dispositive. Wright v. Tackett, 39 F.3d 155,157-58 (7th Cir. 1994) (analysis of
jurisdictional principals implicated by Rooker-Feldman doctrine must precede other
substantive matters, such as immunity).

II.

LEGAL STANDARD
The question of subject matter jurisdiction falls under Rule 12(b)(1). A Rule

12(b)(1) motion can present either a facial or factual challenge to subject matter
jurisdiction. Apex Digital, Inc. v. Sears, Roebucks & Co., 572 F.3d 440 (7th Cir. 2009). A
facial attack, like this one, is a challenge to the sufficiency of the pleading itself. Id.
When such a challenge has been presented, the court takes all well-pleaded factual
allegations as true and draws all reasonable inferences in favor of the plaintiff. Long v.
Shorebank Dev. Corp., 182 F.3d 548,554 (7th Cir. 1999).
III.

DISCUSSION
At the heart of this dispute is the Rooker-Feldman doctrine, which derives its name

from two decisions of the United States Supreme Court, Rookerv. Fidelity Trust Co., 263
U.S. 413 (1923), and District of Columbia Court of Appeals v. Feldman, 460 U.S. 462 (1983).
The doctrine precludes lower federal court jurisdiction over claims seeking review of
state court judgments. Brokaw v. Weaver, 305 F.3d 660,664 (7th Cir. 2002). The doctrine
"is not limited to just those claims alleging that the state court judgment itself caused
the federal plaintiffs injury; the doctrine also precludes federal jurisdiction over claims
'inextricably intertwined' with a state court determination." Remerv. Burlington Area
Sch. Dist., 205 F.3d 990, 996 (7th Cir 2000) (quoting Feldman, 460 U.S. at 483-84 n.16). As
the Seventh Circuit has noted, "it can be difficult to discern which claims are and which
claims are not 'inextricably intertwined' with a state judgment." Id. The pivotal inquiry
in applying the doctrine is whether the federal plaintiff seeks to set aside a state court
judgment or whether he is presenting an independent claim. Id.

In this case, defendants argue that by bringing this suit complaining about a state
court child support order, plaintiff is inviting a lower federal court to examine and pass
judgment upon a state court ruling. Plaintiff argues that the doctrine is inapplicable
because he does not seek to overturn the state court judgment; instead he seeks
damages for injuries caused by constitutional violations that occurred during the course
of state court proceedings.
The Seventh Circuit Court of Appeals has made clear that plaintiffs argument is
meritless. Though a complaint may technically assert a "constitutional violation"
seeking damages, the problem still remains that the plaintiff cannot prevail on the
complaint unless a finding is made, by a lower federal court, that the state court erred in
some respect in issuing the order which caused the monetary damage. Such review of a
state court judgment is something Rooker-Feldman does not permit. Exxon Mobil Corp. v.
Saudi Basic Indus. Corp., 544 U.S. 280,283 (2005) (Rooker-Feldman prohibits federal court
from exercising jurisdiction over "cases brought by state-court losers complaining of
injuries caused by state-court judgments rendered before the district court proceedings
commenced and inviting district court review and rejection of those judgments").
Rooker-Feldman's application is particularly obvious where, as here, it is not simply
damages being sought, but also injunctive relief directed at the state court itself.
Notably, a state court judgment may not be attacked in a complaint filed in federal
district court even if the procedures allegedly employed at the state court level were
unconstitutional. GASH Assoc, v. Village of Rosemont, 995 F.2d 726,729 (1993)
("Rooker-Feldman ... bar[s]... litigation ... where the plaintiff's injury stem[s] from the

state judgment—an erroneous judgment, perhaps, entered after procedures said to be
unconstitutional, but a judgment nonetheless/').
The Seventh Circuit has applied this principle to numerous complaints filed in
federal district court which sought to challenge state court child support orders. See, e.g.,
Dixon v. Rick, No. 19-1138,2019 WL 5446009, at *1 (7th Cir. Oct. 24,2019) (RookerFeldman barred complaint alleging constitutional violations related to child support
order); Syph v. Arce, 772 F. App'x 356,357 (7th Cir. 2019) ("Syph thus cannot sidestep
Rooker-Feldman by arguing that the state court denied him due process" in course of
child support proceedings); Gorzelanczyk v. Baldassone, 29 F. App'x 402,403 (7th Cir.
2002) ("[Ejven though Gorzelanczyk labels his lawsuit as a § 1983 action alleging due
process violations, his real injury is the child support order, not any alleged denial of
due process[.]"); see also T.W. v. Brophy, 124 F.3d 893,898 (7th Cir. 1997) (applying
Rooker-Feldman to child custody decision). The same principle applies here, and RookerFeldman bars plaintiffs lawsuit.
It is worth noting that, even if this court had jurisdiction over this case, two
additional roadblocks would stand in plaintiff s way. First, the Seventh Circuit has
applied the "domestic relations exception" to federal jurisdiction to cases involving
child support orders, holding that the exception bars suits like this one. See, e.g., Dixon,
781 F. App'x at 561. Second, defendants would likely enjoy immunity from this lawsuit.
Stump v. Sparkman, 435 U.S. 349,356-64 (1978) (judicial immunity); Imblerv. Pachtman,
424 U.S. 409,420 (1976) (prosecutorial immunity).

\

rv.

CONCLUSION
For the foregoing reasons, defendants' motion to dismiss (DE # 48) is

GRANTED and this case is DISMISSED. All other pending motions on the docket are
DENIED as moot
SO ORDERED.
Date: November 21,2019
s/Tames T. Moody______________
JUDGE JAMES T. MOODY
UNITED STATES DISTRICT COURT

APPENDIX C

4
0

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
HAMMOND DIVISION
ADRIAN G. RANGEL,
Plaintiff,
v.
STEVEN P. MEYER, et al,
Defendants.

)
)
)
)
)
)
)
)
)

No. 2:18 CV 413

ORDER
Adrian G. Rangel, pro se, has filed an in forma pauperis petition and a complaint. It
appearing that the plaintiff is unable to afford to pay the filing fee, the court: (1)
GRANTS the plaintiff leave to proceed in forma pauperis (DE # 2); (2) DEFERS payment
of the filing fee; (3) ORDERS the plaintiff to pay the $350.00 filing fee from the proceeds
of any recovery that is received in this case; and (4) DIRECTS, pursuant to 28 U.S.C.
§ 1915(d), the United States Marshals Service to effect service of process on defendants.
SO ORDERED.
Date: February 6,2019
s/ Tames T. Moody_____________
JUDGE JAMES T. MOODY
UNITED STATES DISTRICT COURT

i

APPENDIX D

IN THE

COURT OF APPEALS OF INDIANA
Adrian Garcia Rangel,
Appellant,
Court of Appeals Cause No.
79A04-1705-DR-952

v.

Marina Lynn Rangel,

FILED

Appellee.
!

Mar 29 2018. 12 58 pm

•CLERK*

Indiana Supreme Court
Court of Appeals
and Taxc Court

Order
[l]

[21

On July 5,2017, this Court dismissed this appeal. On March 7, 2018,
Appellant, pro se, filed a Motion to Proceed on Appeal in Forma Pauperis.
Having reviewed the matter, the Court finds and orders as follows:
1. Appellant’s Motion to Proceed on Appeal in Forma Pauperis is denied as
moot.
2. This appeal remains dismissed.

[3]

Ordered

3/29/2018

Tt&iuvf.

yC.'dJe,

Chief Judge

Page 1 of 1

«

APPENDIX E

V

V

IN THE
INDIANA COURT OF APPEALS
Case No.: 79A04-1705-DR-00952
Appeal from the Tippecanoe County
Superior Court 2

ADRIAN GARCIA RANGEL,
Appellants),

)
)
)

vs.

)
)

Trial Court Case No:
79D02-0611-DR-0003 86

MARINA LYNN RENGEL,
Appellee (s),

)
)
)
)
)

The Honorable John O’Bryan,
IVD Commissioner
The Honorable Steven P Meyer
Judge

NOTICE OF COMPLETION OF CLERK’S RECORD
Chnsta Coffey, the Clerk of Tippecanoe County Courts, hereby notifies the parties, pursuant
to Appellate Rule 10(C), that the Clerk’s Record in this case has been assembled and is complete.
The Transcript is (circle one):
(a) Completed and filed with this clerk;
(b) Not vet completed:
(c) Not requested in the Notice of Appeal.
Attached to this Notice of Completion is a certified and updated copy of the Chronological Case
Date Issued:

(Ifauh.

MAY-. ^'9 2017
Clerk

CERTIFICATE OF SERVICE
I certify that on May 9, 2017 I served a copy of this document upon the following person(s):
Adrian Rangel - US Mail
PO Box 1191
Lake Zurich IL 60047
Gregg Theobald - E-File
•

Ryan Corkle - E-file
IVD Prosecutor
Clerk

ij

r
4

APPENDIX F

STATE OF INDIANA

) IN THE TIPPECANOE SUPERIOR COURT 2

COUNTY OF TIPPECANOE

) CASE NO: 79D02-0611-DR-000386

)

May 07,2018
IN RE THE MARRIAGE OF MARINA LYNN RANGEL AND ADRIAN GARCIA RANGEL
ORDER FOR WRIT OF ATTACHMENT
THE FOLLOWING'APPEAR FOR THE HEARING:
Marina Lynn Rangel (Mother)
Gregg Theobald (Mother’s Private Attorney)
Ryan Corkle (Deputy Prosecuting Attorney)
THE FOLLOWING DO NOT APPEAR FOR THE HEARING:
Adrian Garcia Rangel (Father)
Court’s record indicates that Father was served on March 28,2018 and April 7,2018 by certified mail. Father filed
Notice May 4,2018, the Friday prior to the Monday hearing stating that he would be unable to attend. Father requested
no relief from the Court and Father offered no evidence in his notice to support his statements. Court was unable to
determine relief sought by the Father. Father could have asked to continue or appear telephonically but did neither. Court
was therefore unable to find good cause for Father’s failure to appear. Court will recall writ upon showing good cause to
the Court or appearance at next hearing.
Court finds adequate service for hearing on today’s date. Adrian Garcia Rangel (Father) fails to appear for said hearing.
Court ORDERS the issuance of a Writ of Attachment for failure to appear.
An Appearance Bond is set in the amount of $3,200.00 to be placed in the name of Adrian Garcia Rangel only.
Clerk is-directed to release and apply said bond/escrow to child support arrearage in this cause.
Court notes child support arrears exceed bond amount.
Court ORDERS said party to apply for the Work Release Program and, if accepted, enroll and comply with the rules of
said program including recommended courses and/or programs until bond and all Work Release fees are paid in full.
So ORDERED on this the 9th day of May, 2018.

Matthew D. Boulac, IV-D CommlssnJner

Steven P. Meyer, Judge

V

p

*

t

APPENDIX G

STATE OF INDIANA

)
)

COUNTY OF TIPPECANOE

)

IN RE THE MARRIAGE OF
MARINA RANGEL:
Petitioner / Mother,
and
ADRIAN RANGEL
Respondent / Father

IN THE TIPPECANOE SUPERIOR
COURT 2
LAFAYETTE, INDIANA
)
)
)
)
)
)
)
)

CAUSE NO.
79D02-061 l-DR-000386

MOTION FOR FINDINGS OF FACT AND CONCLUSIONS OF LAW

Comes now the Respondent, Adrian Rangel, and files his MOTION FOR FINDINGS OF FACT
AND CONCLUSIONS OF LAW in the above case stating the following:

The Petitioner’s arbitrary CP levy of $18,334.06 is both unexplained and unreasonable.

Wherefore the Respondent requests that his MOTION FOR FINDINGS OF FACT AND
CONCLUSIONS OF LAW be granted.
April 2,2017

Respectfully submitted,

Adrian Rangel, pro se
POB 1191
Lake Zurich, IL 60047
312-696-9889

t
+m

CERTIFICATE OF FILING AND SERVICE
I hereby certify that on this__ 3rd___ day of April_, 2017__ , the foregoing was
filed with the Clerk of the TIPPECANOE COUNTY SUPERIOR COURT 2.
I also certify that on this _3rd day of _April
U.S. Mail First Class upon:

, 2017

, the foregoing was served by

John O’Bryan, Tippecanoe Superior Court 2, 301 Main Street, Lafayette, IN 47901
Clerk Of the Court, Tippecanoe Superior Court 2, 301 Main Street, Lafayette, IN 47901
Marina L Rangel, POB 3141, Munster, IN 46321

[Signature]
Adrian Rangel
POB 1191
Lake Zurich, IL 60047
312-696-9889

